 Pension Benefit Guaranty Corporation
           Office of Inspector General
                      Audit Report



Audit of the Pension Benefit Guaranty Corporation's
 Fiscal Years 2004 and 2003 Financial Statements

                    Report of Independent Auditors

                      Report on Internal Control

    Report of Independent Auditors on Compliance and Other Matters




                Pension Benefit Guaranty Corporation's
           Fiscal Years 2004 and 2003 Financial Statements
                and Notes to the Financial Statements




                    November 15, 2004                        2005-2/23182-2
                    Pension Benefit Guaranty Corporation
                                                   Office of Inspector General
                                   1 200 K Street, N.W.,Washington, D.C.20005-4026

To the Board of Directors
Pension Benefit Guaranty Corporation

We contracted with the independent certified public accounting firm of
PricewaterhouseCoopers LLP to audit the financial statements of Single-Employer and
Multiemployer Program Funds administered by the Pension Benefit Guaranty Corporation
(PBGC)a s of the Fiscal Years 2004 and 2003. This audit is performed in accordance with
auditing standards generally accepted in the United States of America, Government
Auditing Standards issued by the Comptroller General of the United States, and the
GAO/PCIE Financial Audit Manual.

In its audit of the financial statements of Single-Employer and Multiemployer Program
Funds administered by PBGC, PricewaterhouseCoopers found:

       The financial statements were fairly presented, in all material respects, in
       conformity with accounting principles generally accepted in the United States of
       America;

       PBGC's assertion about internal controls over financial reporting and compliance
       with laws and regulations is fairly stated, however;

       Five reportable conditions relating to financial management systems integration,
       information security, single-employer premiums, contingent liabilities for the
       Single-Employer Program Fund, and identifying and classifying probable
       Multiemployer plans; and

       No reportable noncompliance with laws and regulations it tested.

PricewaterhouseCoopers is responsible for the accompanying auditor's report dated
November 12, 2004 and the conclusions expressed in the report. We do not express
opinions on PBGC's financial statements or internal control or conclusions on compliance
with laws and regulations.

PricewaterhouseCoopers' reports (2005-2/23182-2) are available on our website a t
http: / /oig.pbgc.gov.

Sincerely,



Robert L. Emmons
Inspector General

November 12, 2004
               Audit of the Pension Benefit Guaranty Corporation's
                F'iscaZ Year 2004 and 2003 F'inancial Statements

                           Audit Report 2005-2/23182-2




                                    Contents


Section I:     Report of Independent Auditors


Section 11:    Report on Internal Control


Section 111:   Report of Independent Auditors on Compliance
               and Other Matters


Section TV:    Pension Benefit Guaranty Corporation's Fiscal
               Years 2004 and 2003 Financial Statements and
               Notes to the Financial Statements


Section V:     Agency Comments
                         Abbreviations 



AICPA   American Institute of Certified Public Accountants
CFND    Corporate Finance and
CTO     Chief Technology Officer
EISSP   Enterprise Information System Security Plan
FMFIA   Federal Managers' Financial Integrity Act of 1982
FOD     Financial Operations Department
FRS     Financial Reporting System
IOD     Insurance Operations Department
IPVFB   Integrated Present Value of Future Benefits
IRMD    Information Resource Management Department
ISSO    Information Systems Security Officer
IT      Information Technology
JFMIP   Joint Financial Manager's Improvement Program
OIG     Office of Inspector General
0M,B    Office of Management and Budget
PA      Performance Accountinrr
PAS     Premium Accounting system
PBGC    Pension Benefit Guaranty Corporation
PRISM   Participant Records Information Systems Management
TPL     Trust Plan Ledger
           Section I 


Report of Independent Auditors
                                                                                                  PricewaterhouseCoopers LLP
                                                                                                  Suite 800W
                                                                                                  1301 K St., N.W.
                                                                                                  Washington DC 20005-3333
                                                                                                  Telephone (202) 414 1000
                                                                                                  Facsimile (202) 414 1301
                                                                                                  www.pwc.com

                                         Report of Independent Auditors

To the Inspector General
Pension Benefit Guaranty Corporation

We have audited the accompanying statements of financial condition of the Single-Employer and Multiemployer
Program Funds administered by the Pension Benefit Guaranty Corporation (PBGC) as of September 30,2004 and
2003, and the related statements of operations and changes in net position and of cash flows for the years then
ended. These financial statements are the responsibility of PBGC's management. Our responsibility is to express
an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and Government Auditing Standards, issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain reasonable assurance about whether the financial
statements are free of material misstatement. An audit includes examining, on a test basis, evidence supporting
the amounts and disclosures in the financial statements. An audit also includes assessing the accounting
principles used and significant estimates made by management, as well as evaluating the overall financial
statement presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the financial
                                                                                                                           ,..,
position of the Single-Employer and Multiemployer Program Funds administered by PBGC at Septeinber 30,
2004 and 2003, and the results of their operations and their cash flows for the years then ended in conformity
with accounting principles generally accepted in the United States of America.

By law, PBGC's Single-Employer and Multiemployer Program Funds (the Funds) must be self-sustaining, and
therefore their premiums must be sufficient to cover both their short and long-term obligations. The Funds have
been able to meet their short-term benefit obligations. However, as discussed in Note 1, management bclieves
that neither program at present has the resources to fully satisfy PBGC's long-term obligations to plan
participants. The Funds' statements of financial condition report a net deficit position (liabilities in excess of
assets) of the Single-Employer and Multiemployer Program Funds of $23.3 billion and $236 million,
respectively, at September 30, 2004. The Single-Employer Program reported net losses of $12 billion and $7.6
billion and the Multiemployer Program reported net income of $25 million and a net loss of $419 million for
2004 and 2003, respectively. Losses for the Single-Employer Program that are reasonably possible as a result of
unfunded vested benefits are estimated to be $96 billion as of September 30, 2004. Losses for the Multiemployer
Program that are reasonably possible are estimated to be $1 08 million as of September 30,2004. The Funds' net
deficits, and long-term viability, could be further impacted by losses from plans classified as reasonably possible
(or from other plans not yet identified as potential losses) as a result of deteriorating economic conditions, the
insolvency of a large plan sponsor or other factors.

Management's discussion and analysis, the Actuarial Valuation, and other supplemental information contain a
wide range of data, some of which are not directly related to the financial statements. We do not express an
opinion on this information. However, we compared this information for consistency with the financial
statements and discussed the methods of measurement and presentation with PBGC officials. Based on this
limited work, we found no material inconsistencies with the financial statements.

In accordance with Government Auditing Standards, we have also issued our reports dated November 12,2004
on our consideration of PBGC's internal control and a report dated November 12,2004, on compliance and other
matters. Those reports are an integral part of an audit performed in accordance with Government Auditing
Standards and should be read in conjunction with this report in considering the results of our audit.




November 12,2004
        Section 11


Report on Internal Control
                                                                                                 PricewaterhouseCoopers L L P
                                                                                                 Suite 800W
                                                                                                 1301 K St., N.W.
                                                                                                 Washington DC 20005-3333
                                                                                                 Telephone (202) 414 1000
                                                                                                 Facsimile (202) 414 1301
                                                                                                 www.pwc.com


                               Independent Auditors' Report on Internal Control

To the Inspector General
Pension Benefit Guaranty Corporation

We have examined management's assertion that the Pension Benefit Guaranty Corporation (PBGC) maintained
effective internal control over financial reporting (including safeguarding of assets) and compliance with laws
and regulations as of September 30,2004, based on the criteria contained in the Federal Managers' Financial
Integrity Act of 1982 (FMFIA). We did not examine all internal controls relevant to operating objectives as
broadly defined by FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. PBGC's management is responsible for maintaining effective internal control. Our responsibility is
to express an opinion on the effectiveness of internal control based on our examination.

 Our examination was conducted in accordance with attestation standards established by the American Institute of
 Certified Public Accountants (AICPA) and Government Auditing Standards, issued by the Comptroller General
 of the United states, and, accordingly, included obtaining an understanding of internal control, testing and
.evaluating the design and operating effectiveness of internal control, and performing such other procedures as we
 considered necessary in the circumstances. We believe that our examination provides a reasonable basis for our
 opinion.

Because of inherent limitations in any internal control, misstatements due to error or fraud may occur and not be
detected. Also, projections of any evaluation of the internal control to future periods are subject to the risk that
the internal control may become inadequate because of changes in conditions or that the degree of compliance
with the policies or procedures may deteriorate.

In our opinion, management's assertion that PBGC maintained effective internal control over financial reporting
(including safeguarding of assets) and compliance with laws and regulations as of September 30, 2004 is fairly
stated, in all material respects, based on criteria contained in FMFIA.

However, we noted certain matters involving the internal control and its operation, set forth below and in the
attached Schedule of Internal Control Findings that we consider to be reportable conditions under standards
established by the AICPA. A reportable condition is a matter coming to our attention relating to significant
deficiencies in the design or operation of the internal control that, in our judgment, could adversely affect
PBGC's ability to initiate, record, process, and report financial data consistent with the assertions of management
in the financial statements.

A material weakness, as defined by the AICPA, is a reportable condition in which the design or operation of one
or more of the internal control components does not reduce to a relatively low level the risk that misstatements
caused by error or fraud in amounts that would be material in relation to the financial statements being audited
may occur and not be detected within a timely period by employees in the normal course of performing their
assigned functions. We believe that none of the five reportable conditions listed below is a material weakness as
defined by the AICPA.
The reportable conditions we noted were:

(1)   PBGC needs to complete the integration of its financial management systems;
(2)   PBGC needs to complete its efforts to fully implement and enforce an effective information security
      program;
(3)   PBGC needs to improve controls related to single-employer premiums;
(4)   PBGC needs to continue to improve its controls over the identification and measurement of the single-
      employer contingent liabilities; and,
(5)   PBGC needs to strengthen controls over the identification and classification of multiemployer plans
      probable of receiving financial assistance.

We noted other less significant matters involving the internal control and its operation that we will communicate
in a separate letter.

This report is intended soIely for the information and use of PBGC's Office of Inspector General, the Board of
Directors, the management of PBGC, Office of Management and Budget, and the United States Congress, and is
not intended to be and should not be used by anyone other than these specified parties.




November 12,2004
Pension Benefit Guaranty Corporation
2004 Financial Statement Audit
Schedule of Internal Control Findings

PBGC Needs to Integrate its Financial Management Systems

In prior year audits, we identified a lack of integration of the PBGC's financially significant systems.
These systems include: Financial Reporting System (FRS), Performance Accounting (PA) system, Trust
Accounting System (TAS), Participant Records Information System Management (PRISM), Premium
Accounting System (PAS), Integrated Present Value of Future Benefits (IPVFB), and Pension and Lump
Sum System (PLUS).

Office of Management and Budget (OMB) Circular A-1 27 Financial Management System requires that
financial management systems should be designed to provide'for effective and efficient interrelationships
between systems. This Circular states the following:

        The term "single, integrated financial management system" means a unified set of financial
        systems and the financial portions of mixed systems encompassing the software, hardware,
        personnel, processes (manual and automated), procedures, controls and data necessary to carry
        out financial management functions, manage financial operations of the agency and report on the
        agency's financial status to central agencies, Congress and the public. Unified means that the
        systems are planned for and managed together, operated in an integrated fashion, and linked
        together electronically in an efficient and effective manner to provide agency-wide financial
        system support necessary to carry out the agency's mission and support the agency's financial
        management needs.

The Joint Financial Management Improvement Program (JFM1P)'s "Core Financial System
Requirements" document, lists the following integrated, financial management system attributes:
        Standard data classifications (definition and formats) established and used for recording financial
- .-. . events;
        Common processes used for processing similar kinds of transactions;
        Internal controls over data entry, transaction processing, and reporting applied consistently; and
        A system design that eliminates unnecessary duplication of transaction entry.

PBGC has effective controls to foster data integrity among its financially significant systems and is
currently instituting methodologies that will promote further integration as systems are developed or
changed, which was evidenced by the following:
        PBGC formulated a Steering Committee and Working Group to plan, design, and implement a
        system integration solution.
        The system interface controls, used to reconcile data transmitted to and from the three general
        ledger applications, appear to be operating effectively.
        The manual interface controls, used to reconcile data between IPVFB and FRS, appear to be
        operating effectively.
        Although not complete, progress has been made on the development of a logical database model
        for IOD databases. Once database models are completed for IOD and FOD, all new development
        will be required to conform to these models. (physical re-design will be implemented as
        applications are developed or significantly enhanced).
        A System Lifecycle Methodology (SLCM) Methodologist, who ensures that projects fully
        comply with the SLCM, has been assigned to the following financially significant development
        efforts: SPECTRU,M/PRISM, PPSIPAS, and Database Redesign.

More needs to be done, however, to integrate PBGC's existing financially significant systems. We
identified the following factors relevant to the integration of systems:
Pension Benefit Guaranty Corporation
2004 Financial Statement Audit
Schedule of Internal Control Findings

Lack of standard data classifications and common data elements:
        The logical database models have not been finalized for the IOD databases and have not been
        initiated for the FOD databases. Therefore, no centralized data catalog defining data elements or
        data access methods is available for current databases.
        The current decentralized database structure may lead to erroneous financial and participant data.
        For example, the same data elements are required to be reformatted or are used for different
        purposes across PBGC's various applications.
       The current decentralized database structure may lead to untimely financial or participant data.
       Participant data must be reformatted and distributed to multiple PBGC systems; therefore, users
        may be relying on outdated information to make business decisions.

Duplication of transaction entry:
       PBGC uses three general ledger systems (TAS, PA, and FRS) to track trust, revolving, and
       consolidated transactions rather than one system to track all three. Therefore, manual adjusting
       journal entries (AJE) are required to synchronize the data between TAS, PA, and FRS.
       Probable and Multi-employer plan data, which were initially entered into IPVFB, must be
       manually reentered into a spreadsheet and then manually entered into FRS as adjusting journal
       entries.
       Plan data, which were initially entered into the CAS Application, must be reentered into the TAS
       application's portfolio header.
       Plan contingency listings are detennined using data extracted from PAS. However, plans with
       multiple filings must be manually aggregated before the plans can be classified. In FY 2004, we
       noted one plan that was not included in the supplemental list.
       Plan sponsor data, which were initially entered into PAS to process receivables, must also be
       entered into PA to process refunds.

Poor data integrity:
        The data in the Premium Accounting System requires significant manual review and adjustment
        before it can be used for the purposes of reporting the premiums income and receivables in
        PBGC's financial statements.

Systems not planned or managed together:
       PBGC has not finalized the SLCM Manual that would foster integration for newly developed
       applications. Our testing identified the following issues:
           o The SLCM Policy is still in the process of becoming a directive.
           o Several SLCM components are still in draft.
           o The Enterprise Architecture component of the SLCM does not require compliance with
               the FOD and IOD database models.

In the short term, the Corporation's ability to accurately and efficiently accumulate and summarize
information required for internal and external financial reporting may be impacted. For this reason, this
issue remains a reportable condition for FY 2004.

Recommendations:

We are encouraged by tl~e.improvementmade and direction taken by PBGC, in the areas noted above.
However, we recommend that PBGC continue its efforts in this area by doing the following:
       Integrate its financial management systems, in accordance with OMB Circular A-127. (OIG
       Control Number FOD-268)
Pension Benefit Guaranty Corporation
2004 Financial Statement Audit
Schedule of Internal Control Findings
PBGC Needs to Complete its Efforts to Fully Implement and Enforce an Effective Information
Security Program

During the fiscal year 2002 and 2003 financial audits, we noted that PBGC's enterprise-wide security
management program needed improvement. During our fiscal year 2004 review of PBGC's existing
security program, we noted that PBGC made the following progress:
        Effective FY 2004, the ISSO now reports directly to the CTO. This reporting relationship
        provides the ISSO with the necessary independence from the Office of Information Technology
        (OIT). Furthermore, the ISSO has been assigned staff to assist in developing and enforcing IT
        security policies and procedures across the agency.
        Background or suitability checks appear to be performed consistently for all federal employees
        and contractors across PBGC.

However, our review of PBGC's existing security program revealed weaknesses in controls that expose
PBGC's financially significant systems and data to unauthorized access and/or modification. Weaknesses
included the following:
        PBGC OIT security management, application owners, and application administrators have not
        completed effective security plans, risk assessments, certifications, and accreditations for PBGC's
        financially significant applications and general support systems. Furthermore, OIT has not
        developed or documented criteridguidance to conduct risk assessments, certifications, and
        accreditations.
        PBGC has not consistently deployed security configurations across its financial significant
        applications and general support systems.
        PBGC has not formalized effective processes for granting, removing, and recertifying user access
        to financially significant applications and general support systems.
        Application owners or administrators do not perform periodic auditing and monitoring of user
        access and sensitive transactions for financially significant systems.
        OIT management, application owners, and application administrators are not aware of their
        responsibilities regarding user and security administration for financially significant systems.
        PBGC has granted developers inappropriate access to the production environment.
        OIT has not developed a process that would allow the ISSO to manage and monitor the
        effectiveness of the entity-wide security program.

Until PBGC implements a complete enterprise-wide information security program, its ability to mitigate
effectively the risk of unauthorized access to, and/or modification or disclosure of, sensitive PBGC
financial and production data will be impaired.

We recommend that PBGC management do the following:
       Assign specific resources to 1) update the general security plan and associated security policies to
       reflect the current operating environment, and 2) complete the implementation of a fully
       functional and integrated enterprise-wide information security program, with priority given to
       implementation and monitoring of technical security standards. (OIG Control Number CTO-5)
       Develop enforcement mechanisms to ensure that all departments comply with the enterprise-wide
       information security program, as well as consistently enforce policies and procedures for logical
       access to information resources that are based on the concepts of "least possible privilege." (OIG
       Control Number CTO-6)
Pension Benefit Guaranty Corporation
2004 Financial Statement Audit
Schedule of Internal Control Findings

PBGC needs to improve controls related to single-employer premiums.

Work performed during the 2003 financial statement audit and separately by the PBGC Inspector
General, indicated several internal control weaknesses related to the single-employer premiums.
Management has acknowledged the weaknesses associated with the single-employer premiums and has
taken steps, including plans for a new premiums accounting system, to improve the internal controls for
premiums. However, we continue to note internal control weaknesses in our 2004 audit.

The control weaknesses we identified relate to the following internal control objectives:

    Safeguarding of Assets - Ensuring PBGC collects all premiums due under statute. OMB Circular A-
    123, Management Accountability and Controls, requires: Management controls must provide
    reasonable assurance that assets are safeguarded against waste, loss, unauthorized use, and
    misappropriation. Management controls developed for agency programs should be logical,
    applicable, reasonably complete, and effective and efficient in accomplishing management objectives.

    Financial Reporting - Ensuring PBGC complete and reliably reports premium revenue and
    receivables in the financial statements. OMB Circular A-123 states that "transactions should be
    promptly recorded, properly classified and accounted for in order to prepare timely accounts and
    reliable financial and other reports."

Data Quulity Weaknesses
Underlying several of the control weakness noted during our testing is the fact that PBGC's Premium
Accounting System suffers from numerous data quality issues which are attributable to data errors
introduced into Premium Accounting System (PAS) from the initial conversion of the legacy Premium
Processing System. In addition, errors have increased due to incorrect data entry, adjustments, and
system-generated balances. We noted the following control weaknesses that continue to contribute to the
data quality issues:
          PAS allows individuals who are responsible for approving transactions to approve groups of
          transactions, rather than being required to review and approve individual transactions for
          accuracy and completeness.
          PAS continues to carry suspense transactions dating back to 1994. Although PBGC has written
          procedures for clearing items from suspense, there are no written policies or procedures defining
          monitoring controls to ensure that old items are cleared timely.

We also noted during our current and past audits, that PBGC does not have or maintain a complete list of
plans that are required to file a Form 1 (premium filing form) with PBGC. As such PBGC's ability to
effectively ensure that all required plans that have filed and paid premiums is limited. PBGC's ability to
collect premiums owed is further limited because the Corporation does not use the Audit and
Enforcement module within PAS to compare Form 1 filings to pension plan filings with the Department
of Labor. Completing this analysis would enable PBGC to potentially identify plans which had not filed
or paid their associated premiums. PBGC notes that resource constraints prevent them from effectively
using the Audit and Enforcement module of PAS.

Impact of Data Quality Weaknesses
Because of the data quality issues noted, PBGC is unable to efficiently utilize two of its primary tools,
Past Due Filing Notices (PDFN) and Statements of Account (SOA), to ensure the accuracy and
completeness of premium data. The PDFN is a PAS generated notice mailed to plans who have not
submitted premiums. The SOA is also a PAS generated notice used to ensure that under or over paid
Pension Benefit Guaranty Corporation
2004 Financial Statement Audit
Schedule of Internal Control Findings
premiums from a plan sponsor are effectively rectified. We noted during the audit that PDFNs and SOAs
are not mailed timely in accordance with PBGC policy due to the fact that significant resources must be
expended prior to mailing each notice in order to validate the information. Because these notices are not
mailed in a timely manner, the potential exists that premiums will not be collected or that errors in
amounts reflected in PAS will not be detected.

Other Control Matters
Finally, we noted that all of the pertinent policies and procedures related to the premium accounting cycle
have not been documented, communicated or implemented throughout the Corporation.

Recommendations

While we acknowledge that PBGC is currently working toward the implementation of a new premiums
system with an implementation date currently scheduled for spring 2005, we continue to recommend that
PBGC:

        Develop and implement a systematic methodology for validating and correcting data stored
        within PAS prior to the implementation of a new premium system. (OIG Control Number
        FOD-33 1)
        Eliminate the ability to approve groups or multiple premium transactions. (OIG Control
        Number FOD-332)
        Develop and implement policies and procedures requiring all suspended transactions to be
        researched and resolved in a timely manner and ensuring that adjustments are appropriately
        reviewed and approved. (OIG Control Number FOD-333)
        Implement controls to reconcile Form 1 information received by PBGC to Form 5500
        information received by the Department of Labor as a means of identifiing plans that have not
        filed or paid their associated premiums. (OIG Control Number POD-334)
         Compile a comprehensive polices and procedures manual for processing and accounting for
        premium revenue. (OIG Control Number FOD-335)
Pension Benefit Guaranty Corporation
2004 Financial Statement Audit
Schedule of Internal Control Findings
PBGC needs to continue to improve controls over the identification and measurement of the Single-
Employer Program Fund contingent liabilities.

In previous audits, PwC has noted several internal control weaknesses in the single-employer contingent
liabilities area, including errors in PBGC's calculations of its contingent liabilities and weaknesses related
to the classification of plans as probable, reasonably possible, or remote.

In the current fiscal year, PBGC continued its efforts to improve the internal controls utilized to identify
and value contingent liabilities. Some of the efforts, which extended through the end of our audit,
included:
         Refining the definitions of contingency classifications.
         Enhancing guidance on factors to be considered in assessing probable and reasonably possible
         plans.
        Enhancing guidance to support the rationale and conclusions for classifying contingent liabilities.
         Standardizing the format of memos used to document the conclusions for classifying contingent
         liabilities.

These are important steps toward improving the internal controls; however PwC noted the following
calculation errors and other internal control weaknesses when testing the contingent liabilities.

Benefit Liability Calculations
         We noted errors that went undetected by management in the actuarial calculations of the
         unfunded vested benefits of plans classified as reasonably possible of termination. Our testing
         indicated that eight plans (related to six plan sponsors), from a sample of 94 plan sponsors,
         contained calculation errors totaling $254.66 million, which had a net liability decrease of
         $149.54 million to the unfunded vested benefits liability of $95.67 million. Subsequent to our
         initial testing, PBGC corrected the errors noted.
         Documentation utilized by PBGC to support liability calculations was not consistently
         maintained in accordance with Office of Management and Budget (OMB) Circular A-123,
         Management Accountability and Control. OMB A-123 requires agencies to maintain
         documentation which is clear and readily available for review. Furthermore, the documentation
         to support the liability calculations contained no evidence of independent or supervisory review.

Completeness of Contingency List
       We noted four plans (related to four plan sponsors) which were inappropriately excluded from
       the contingency list and two plans (related to one plan sponsor) which were inappropriately
       included on the contingency list. We also noted one instance when a plan was classified both as
       a reasonably possible and a remote contingent liability. The absolute dollars associated with
       these findings totaled $74.6 million, while the net increase in the liability totaled $7.2 million.
       Subsequent to our initial testing, PBGC corrected the errors noted.

Definitions of Criteria
        The contingency policy guidance initially provided to PwC, and utilized by PBGC during a
         portion of the audit period, contained erroneous classification criteria, that were inconsistent with
         PBGC's accounting policies. Specifically, the probable criteria initially provided indicated that,
        "It is more likely than not that the plan will have to be terminated within one year of the
         scheduled financial statement issuance date." However, the policy states, "It is likely that the
         plan will have to be terminated within one year of the scheduled financial statement issuance
         date.'' While these definitions appear subtle, the use of an incorrect definition could result in the
         improper classification of a contingent liability.
Pension Benefit Guaranty Corporation
2004 Financial Statement Audit
Schedule of Internal Control Findings
         A classification memo made reference to PBGC experience, as support for classification of a
         plan as probable. PBGC did not provide requested support for this experience; rather, a revised
         memo was prepared which cited additional facts and did not include the previously articulated
         rationale for classification.

Docuinentation of Decisions
       Memos that document PBGC's classification of a plan as probable or "high risk" reasonably
       possible, did not include all relevant considerations used by PBGC to make classification
       decisions and were inconsistently prepared. For example, documentation for some plans
       articulated why the plans should be considered probable and conversely indicated the rationale
       for not classifying the plans as reasonably possible. However, the documentation for other plans
       only included the rationale for classifying the plans as a probable, but did not identify reasons
       why the plans should not be classified reasonably possible.
       We noted that PBGC will often prepare multiple memos regarding the classification of specific
       plans and the underlying facts and circumstances which support the recommended
       classifications. We noted during our testing that these time series memos are not chronologically
       dated. Furthermore, we noted that the subsequently prepared memos do not consistently
       articulate the rationale for moving plans between liability classifications.

Approval of Decisions
        ~ u r i our
                n ~audit, we tested thirty "high risk" memos prepared during fiscal year 2004. We noted
        two instances when the "high risk" memos were not approved by the CFND Deputy Director, as
        required by PBGC policy guidance.

Subsequent Events
        Subsequent to September 30,2004, but prior to the issuance of the financial statements, PBGC
        obtained information related to a plan which led to its classification as probable of termination.
        PBGC concluded that this event should be classified as a Type I1 subsequent event and not
        recorded as probable as of September 30,2004. However, the facts associated with this plan,
        and used by PBGC to reach its conclusion existed prior to September 30,2004. As such, this
        plan should have been categorized as probable of termination and recorded as a liability of the
        Corporation as of September 30,2004.

Snzall Reasonably Possible Methodology
         The process used to estimate the disclosure of small probables (less than $5 million of UVB)
         reasonably possible of termination relied on the extrapolation of characteristics from the large
         plans to the smaller plan population. However, this approach was invalidated by significant
         changes in the large plan population over the last two years. PBGC continued to apply this
         method in developing the 2004 disclosures.

In the aggregate, we believe that these weaknesses constitute a significant deficiency in internal controls
to prevent or detect misstatements of the contingent liability information.
Pension Benefit Guaranty Corporation
2004 Financial Statement Audit
Schedule of Internal Control Findings



We recommend that PBGC:

        Develop and implement internal controls to ensure the accuracy of the unfunded benefit liability
        calculations. The procedures implemented should ensure that documentation supporting the
        liability calculations is clear and readily available, and contain evidence of an independent or
        supervisory review. (OIGControl Number CFND-9)
        Consistently implement and enforce internal controls to ensure the completeness of the
        contingency listing. (OIGControl Number CFND-10)
        Consistently implement and apply policy guidance regarding the definitions and criteria utilized
        to classify plans as probable, reasonably possible, or remote. (OIGControl Number CFND-
        11)
        Consistently implement procedures and guidance for documenting the decisions and judgments
        made to support plan classifications. Documentation should be completed in a timely manner,
        appropriately dated, include relevant facts and the consideration of all relevant criteria, and
        clearly indicate when a plan has satisfied or failed to satisfy specific classification criteria. (OIG
        Control Number CFND-12)
        Consistently implement procedures to ensure that classification memos are appropriately
        reviewed and approved. (OIGControl Number CFND-13)
        Enhance and consistently implement guidance to fully support subsequent event determinations.
        Judgments and decisions regarding subsequent events should be based on events completed by
        the plan sponsors rather than events controlled by PBGC. Furthermore, PBGC should implement
        policies and procedures to fully document each subsequent event, which includes the relevant
        facts and the final judgments made by PBGC. (OIGControl Number CFND-14)
        Implement procedures to periodically review and assess the methodologies used to calculate or
        estimate the liability amounts reported within the financial statements and to ensure that .
        calculations and estimates are reflective of PBGC's underlying risks. (OIGControl Number
        CFND-15)
Pension Benefit Guaranty Corporation
2004 Financial Statement Audit
Schedule of Internal Control Findings
PBGC needs to strengthen controls over the identification and classification of Multiemployer plans
probable of receiving financial assistance

In our prior audits of PBGC, we noted several control weaknesses in the identification and classification
of multiemployer liabilities that in the aggregate represent significant deficiencies in the design or
operation of internal controls. Our current audit revealed that PBGC had made some progress regarding
policies and procedures, but the weaknesses previously documented and described below had not been
corrected. We believe that the condition highlighted in the following three stages, highlights the noted
weaknesses.

Stage One - IdentlJication of the universe of nzultien~ployerplans guaranteed by PBGC.

The Multiemployer Program Manager reviews system generated information to assist in the preparation
of the reconciliation of the multiemployer universe from prior year to current year. PBGC's procedures
require the preparer of the reconciliation to document the reasons for deleting plans from the universe.
However, formal documentation of this process, including the reasons for plan additions or deletions, was
not documented. Furthermore, this reconciliation was not independently reviewed or validated for
accuracy or completeness.

Recommendations:

        Enforce procedures requiring documentation of the reasons for additions and deletions. (OIG
        Control Number IOD-215)

        Amend existing documentation procedures to require the preparer to date and sign the
        reconciliation. Further, update the procedures to specify the completion of an independent review
        of this reconciliation. (OIG Control Number IOD-240)

Sfuge Two - Initial screening for plan classz~cationthroughfinancial ratios.

Using financial data obtained from pension plan information filed with the Department of Labor, PBGC
calculates five screening ratios. Plans that fail two or more ratios are reviewed by the Multiemployer
Program Manager for plan classification as probable, reasonably possible, or remote. This review
includes a review of data integrity.

Through discussion with management, we noted cases of imperfect or missing data uploaded to MES and
subsequently used in the liquidity ratio analysis. In an attempt to identify plans with imperfect or missing
data, PBGC implemented procedures during 2003 to review plans which failed one or fewer ratios if
during the previous two years the plans had failed two or more ratios. However, even with this new
procedure in place we noted two instances in which plan level financial information was not accurately
transferred froin the Department of Labor, and therefore not utilized by PBGC to determine if the
associated plans should have been added to the contingency list. Furthermore, we noted that the
information and analysis had not been subject to supervisory review. Subsequent discussions with PBGC
representatives indicted that if the MES had been appropriately updated with the data available to PBGC
for review, neither plan would have been included on the contingency list.

Recommendation:

        Develop and implement procedures to ensure that the MES and other data used by PBGC to
        classify plans includes all information available to PBGC. (OIG Control Number IOD-241)
Pension Benefit Guaranty Corporation
2004 Financial Statement Audit
Schedule of Internal Control Findings
        Develop and implement procedures to complete supervisor reviews of information and analysis
        performed during the initial screening of plan classifications. (OIG Control Number IOD-242)

Stage Three - Classljjhg plans that fail initial ratio screening as probable, reasonably possible, or
remote.

The Multiemployer Working Group is required to document all plans that failed three or more ratios and
were classified as remote-Watch List or remote. This information, along with other data regarding the
employers sponsoring the plan and the industry in which the plan operates is also considered when
determining the classification. However, the totality of criteria used to make the classification decisions
has not been fully documented. A reasonable person should be able to read the supporting
documentation, compare it against the criteria and draw the same conclusions. During our review PBGC
was unable to provide the documentation necessary to support the classification. Steps were taken during
the year to improve the documentation of the classification criteria and the documentation to support the
classification decisions; however, we believe that additional improvements are still needed.

Recommendation:

        Document and implement a clear and consistent policy regarding the definitions and classification
        criteria utilized to classify plans as probable, reasonably possible, or remote. To the extent
        possible, classifications should be based on objective and verifiable criteria. (OIG Control
        Number IOD-243)

       Develop, and implement guidance to enhance the documentation regarding decisions and
       judgments made to support plan classifications. The documentation of this information should be
       completed in a consistent fashion, clearly indicating when a plan had satisfied or failed to satisfy
       classification criteria. The documentation should be written in a manner which would allow a
       third party to objectively assess the classification. Financial ratios or other financial data used to
       support the classification decisions should be clearly and consistently documented. (OIG
       Control Number IOD-244)
                 Section 111

Report of Independent Auditors on' Compliance
                    and
                Other Matters
                                                                                              PricewaterhouseCoopers LLP
                                                                                              Suite 800W
                                                                                              1301 K St., N.W.
                                                                                              Washington DC 20005-3333
                                                                                              Telephone (202) 414 1000
                                                                                              Facsimile (202) 414 1301
                                                                                              www.pwc.com


                     Report of Independent Auditors on Compliance a n d O t h e r Matters

To the Inspector General
Pension Benefit Guaranty Corporation

We have audited the financial statements of the Single-En~ployerand Multiemployer Program Funds
administered by the Pension Benefit Guaranty Corporation (PBGC) as of and for the year ended September 30,
2004, and have issued our report thereon dated November 12,2004. We conducted our audit in accordance with
auditing standards generally accepted in the United States of America and the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the United States.

The management of PBGC is responsible for compliance with laws and regulations. As part of obtaining
reasonable assurance about whether PBGC's financial statements are free of material misstatement, we
performed tests o f compliance with certain provisions of laws and regulations, noncompliance with which could
have a direct and material effect on the determination of financial statement amounts, as follows:

    Employee Retirement Income Security Act of 1974 (ERISA);
    Federal Managers' Financial Integrity Act of 1982;
    Retirement Protection Act of 1994;
    Chief Financial Officers Act of 1990; and
    Anti-Deficiency Act (limited to comparing the Corporation's recordcd payments to related authorized
    limitations on certain payments and apportionments).

We limited our tests of compliance to these provisions and we did not test compliance with all laws and
regulations applicable to PBGC. However, providing an opinion on compliance with those provisions was not an
objective of our audit and, accordingly, we do not express such an opinion. The results of our tests of compliance
disclosed no instances of noncompliance with laws and regulations discussed in the preceding paragraph or other
matters that are required to be reported under Government Auditing Standards.

This report is intended solely for the information and use of PBGC's Office of Inspector General, the Board of
Directors, the management of PBGC, Office of Management and Budget, and the United States Congress, and is
not iniended Lo be and should not be used by anyone other than those specified parties.




November 12,2004
              Section A7

Pension Benefit Guaranty Corporation's
Fiscal Years 2004 and 2003 Financial
     Statements and Notes to the
         Financial Statements
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF FINANCIAL CONDITION
                                                                                   Single-Employer             hfultiemployer                 Memorandum
                                                                                      Program                     Program                       Total
                                                                                       September 30,            September 30,                 September 30,
lT)o//nrs in n~i/lioiu)                                                         2004            2003    2004              2003         2004             2003


ASSETS
Cash and cash equivalents

Investments, at market (Note 3):
  Fixed maturity securities
  Equity srcuritirs
  Real estate and rral estate investment trusts
  Othrr
  Total investmrnts

Receivables, net:
 Sponsors of terminated plans
  Premiums (Note 9)
  Sale o f securities
  Investment income
  Other
  Total receivables

Capitalized assets, net                                                           20              4        0                    0       20                 4

Total assets                                                                     993         S34.016   $1.070            01.non     $40.063          $35.01 Q

The ;iccumpznving notes arc a n integral part n f these financial statmients.
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF FINANCIAL CONDITION
                                                                                                    M$tiemglorer                Me ora dum
                                                                                                       r o ~ rm '                 Potf
                                                                          September 30,             September 30.               September 30,
(Dollm r m n/r//rons)                                                 2004             2003      2004             2003     2004            2003

LIABILITIES
Present value o f future benefits, net (Note 4):
  Trusteed plans                                                 $ 43,344         $ 38,904

  Terminated plans pending trusteeship                                 501             463

  Settlements and judgments                                             65              67

  Claims for probable terminations                                  16,926           5.207

  Total present value of futwr benefits, net                        60,836          44,641

Present value of nonrecoverable future
 financial assistance (Note 5)
Unearned premiums (Note 9)                                            -223             207

Due for purchases of securities                                       531              127

Accounts payable and accrued expenses (Note 6)                        708              279

Total liabilities                                                   62,298          45,254


N e t position                                                   (23,305)          (1 1,238)

Total liabihties and net pusition                               $   38.993        S 34.01 6    $1.070          $1 oon    $40.063       X 35.016

The accompanying notes are an integral part of these financial statements.


Commitments and contingencies
  (Notes 7,8, 14 and 15)
                                                                                                                                          I4

PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF OPERATIONS AND CHANGES IN NET POSITION
                                                                    Single-Employer            Multiemployer              Memorandum
                                                                        Prosram                                              Total

                                                                  For the Years Ended      For the Years Ended        For the Years Ended
                                                                     September 30,             September 30,             September 30,
                                                                   2004            21103    2004             2003     2004             2003
UNDERWRITING:
Income:
  Premium (Note 9)
  Other
  Total
Expenses:
 Admin~strative

  Other
  Total
Utlier underwriting activity:
 I.osses from completed and
   probable terminations (Note 10)
  l a s s e s from financial assistance (Note 5)
  Actuadal adjustments (Note 4)
  Total
Underwriting loss

FINANCIAL:
Investment income (Note 11):
  Fixed
  Equity                                                          2,196            2,059
  Other
  Total
lixpenses:
  Investment
  Actuarial c h a r ~ e s(Note 4):
   Due to passage of time
   Due to change in interest rates
  Total
Financial income (loss)
Net income (loss)

Net position, beginning of year
Net position, cnd of year                                     $(23,305)        $(11.238)   $(236)          $(261)   $(33,541)      $(I 1,4991

T h e accompany!: notes are an integral part of these financial statements.
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF CASH FLOWS
                                                                         Program                   Program                Total
                                                                   For the Years Ended     For the Years Ended     For the Years Ended
                                                                      September 30,            September 30,           September 30,
                                                                    2004            2003      2004         2003   2004            2003
O P E R A T I N G ACTIVITIES:
  Premium receipts
  Interest and dividends received. net
  Cash received from plans upon trusteeship
 Receipts from sponsors/non-sponsors
 Receipts from the missing participant program
 Other receipts
 Benefit payments - trusteed plans
 Financial assistance payments
 Settlements and judgments
 Payments for administrative and other expenses
Net cash provided (used) by operating activities
 (Note 13)


I N V E S T I N G ACTIVITIES:
 Proceeds from sales uf investments
 Payments for purchases of investments
Net cash provided (used) by investing activities

Net increase in cash and cash equivalents
Cash and cash equivalents, beginning of year
Cash and cash ecluivalents, end of year

T h e accompanying notes axe an integral part o f these financial statements.
                                                                                                        l6

N O T E S T O FINANCIAL STATEMENTS
S E P T E M B E R 30,2004 AND 2003

Note 1   -- Organization and Purpose
         The Pension Benefit Guaranty Corporation (PBGC or the Corporation) is a federal corporation

created by Title IT' of the Employee Retirement Income Security Act of 1974 (ERISA) and is subject to

the provisions of the Government Corporation Control Act. Its activities are defined in ERISA as

amended by the Multiemployer Pension Plan Amendments Act of 1980, the Single-Employer Pension

Plan Amendments Act of 1986, the Pension Protection Act of 1987, the Retirement Protection Act of

1994 and the Consolidated Appropriations Act, 2001. The Corporation insures the pension benefits,

within statutory limits, of participants in covered single-employer and multiemployer defined benefit

pension plans.

         ERISA requires that PBGC programs be self-financing. The Corporation's principal sources of

revenues are premiums collected from covered plans, assets assumed from terminated plans, collection

of employer liability payments due under ERISA, and investment income. ERISA provides that the

U S . Government is not liable for any obligation or liability incurred by PBGC.

         As of September 30, 2004, the single-employer and multiemployer programs reported deficits of

$23.305 billion and $236 mihon, respectively. T o date, neither program's deficit has affected the

Corporation's ability to maintain liquidity and meet its obligations. However, neither program at present

has the resources to fully satisfy PBGC7slong-term obligations to plan participants. The single-

employer program has assets of nearly $39 billion and the multiemployer program has assets in excess of

$1 billion. Sufficient liquidity exists to meet the programs' obligations for a number of years.

Single-Emolover and Multiemolover Promam Exnosure

         Measures of risk in PBGC's insured base of plan sponsors suggest that the single-employer

deficit may continue to worsen. PBGC's best estimate of the total underfunding in plans sponsored by

companies with credit ratings below investment grade and classified by PBGC as reasonably possible of

termination as of September 30,2004 was $96 billion. The comparable estimates of reasonably possible

exposure for 2003 and 2002 were $82 billion and $35 billion, respectively. These estimates are

measured as of December 31 of the previous year (see Note     7 . For 2004, this exposure is concentrated
in the following sectors: manufacturing; transportation, communication and utilities; and wholesale and

retail trade.
                                                                                                            17


        PBGC estimates that the total underfunding in single-employer plans exceeded $450 billion

(unaudited), as of September 30,2004 and exceeded $350 billion (unaudited) as of September 30,2003.

A comparable estimate was not made in 2002. PBGC's estimate of underfunding as of September 30,
2004 is largely (about 80°/0) based upon employers' reports to PBGC under section 4010 of ERISA of

their December 31, 2003 market value of assets and termination liability. These values were then rolled

forward to September 30,2004 on a plan-by-plan basis using an average pension asset return from

published reports, an average benefit accrual increment, and a liability adjustment factor to reflect the

change in interest factors. The roll fonvard did not adjust for contributions, benefit payments, changes

in liabilities due to the passage of time, or plan amendments since this information was not readily or

reliably available. PBGC's exposure to loss is less than these amounts because of the statutory limits on

insured pensions. For single-employer plans sponsored by employers that d o not file with PBGC under

section 4010 of ERISA, PBGC's estimates are based on data obtained from other filings and

submissions with the government and from corporate annual reports for fiscal years ended in calendar

2003.

        Total underfunding of multiemployer plans is estimated to exceed $150 billion (unaudited) at

September 30, 2004. In 2003, PBGC estimated multiemployer underfunding at $100 billion (unaudited).              ..

Multiemployer plan data is much less current and complete than single-employer data - it is generally

two years older and in some cases three years older than single-employer data and comes only from

Form 5500 filings.

        PBGC estimates that, as of September 30,2004, it is reasonably possible that multiemployer

plans may require future financial assistance in the amount of $108 million. As of September 30, 2003

and 2002, these exposures were estimated at $63 million and $127 million, respectively.

        There is significant volatility in plan underfunding and sponsor credit quality over time, which

makes long term estimates of PBGC's expected claims difficult. This volatility, and the concentration of

claims in a relatively small number of terminated plans, have characterized PBGC's experience to date

and will likely continue. Among the factors that will influence PBGC's claims going forward are

economic conditions affecting interest rates, financial markets, and the rate of business failures.

        Under the single-employer program, PBGC is liable for the payment of guaranteed benefits with

respect only to underfunded terminated plans. An underfunded plan may terminate only if PBGC or a

bankruptcy court finds that one of the four conditions for a distress termination, as defined in ERISA, is
                                                                                                           78

met or if PBGC involuntarily terminates a plan under one of five specified statutory tests. The net

liabiGty assumed by PBGC is generally equal to the present value of the future benefits payable by

PBGC less (1) the amounts that are provided by the plan's assets and (2) the amounts that are

recoverable by PBGC from the plan sponsor and members of the plan sponsor's controlled group, as

defined by ERISA.

        Under the multiemployer program, if a plan becomes insolvent, it receives financial assistance

from PBGC to allow the plan to continue to pay participants their guaranteed benefits. PBGC

recognizes assistance as a loss to the extent that the plan is not expected to be able to repay these

amounts from future plan contributions, employer withdrawal liability or investment earnings.


N o t e 2 -- Significant Accounting Policies

        Basis of Presentation: The accompanying financial statements have been prepared in

accordance with accounting principles generally accepted in the United States of America (GAAP). The

preparation of the financial statements in conformity with GAAP requires management to make

estimates and assumptions that affect the reported amounts of assets and liabilities and disclosure of

contingent assets and liabilities at the date of the financial statements and the reported amounts of

revenues and expenses during the reporting period. Estimates and assumptions may change over time

as new information is obtained or subsequent developments occur. Actual results could differ from

those estimates.

       Valuation Method: A primary objective of PBGC's financial statements is to provide

information that is useful in assessing PBGC's present and future ability to ensure that defined benefit

pension plan beneficiaries receive benefits when due. Accordingly, PBGC values its financial assets at

estimated fair value, consistent with the standards for pension plans contained in Statement of Financial

Accounting Standards (FAS) No. 35 ("Accounting and Reporting by Defined Benefit Pension Plans").

PBGC values its liabilities for the present value of future benefits and present value of nonrecoverable

future financial assistance using assumptions derived from annuity prices from insurance companies, as

described in the Statement of Actuarial Opinion. As described in Paragraph 21 of FAS No. 35, the

assumptions are "those assumptions that are inherent in the estimated cost at the (valuation) date to

obtain a contract with an insurance company to provide participants with their accumulated plan

benefits." Also, in accordance with Paragraph 21 of FAS No. 35, PBGC selects assumptions for
                                                                                                             IY


expected retirement ages and the cost of administrative expenses in accordance with its best estimate of

anticipated experience.

        Revolvin~and Trust Funds: PBGC accounts for its single-employer and multiemployer

programs' revolving and trust funds on an accrual basis. Each fund is charged its portion of the benefits

paid each year. PBGC has combined the revolving and trust funds for presentation purposes in the

financial statements. The single-employer and multiemployer programs are separate programs by law

and, therefore, PBGC reports them separately.

        ERISA provides for the establishment of the revolving fund where premiums are collected and

held. The assets in the revolving fund are used to cover deficits incurred by plans trusteed and provides

funds for financial assistance. The trust fund supports the operational functions of PBGC. The

Pension Protection Act of 1987 created a single-employer revolving (7th)fund that is credited with all

premiums in excess of $8.50 per participant, including all penalties and interest charged on these

amounts, and its share of earnings from investments. This fund may not be used to pay PBGC's

administrative costs or the benefits of any plan terminated prior to October 1, 1988, unless no other

amounts are available.

        The trust funds reflect accounting activity associated with: (1) trusteed plans -- plans for which

PBGC has legal responsibility, (2) plans pending trusteeship -- terminated plans for which PBGC has

not become legal trustee by fiscal year-end, and (3) probable terminations -- plans that PBGC

determines are likely to terminate and be trusteed by PBGC. PBGC cannot exercise legal control over a

plan's assets until it becomes trustee.

        Allocation of Revolvin_pand Trust Funds: PBGC allocates assets, liabilities, income and

expenses to each program's revolving and trust funds to the extent that such amounts are not directly

attributable to a specific fund. Revolving fund investment income is allocated on the basis of each

program's average cash and investments available during the year while the expenses are allocated on the

basis of each program's present value of future benefits. Revolving fund assets and liabilities are

allocated on the basis of the year-end equity of each program's revolving funds. The plan assets

acquired by PBGC and commingled at PBGC's custodian bank are credited directly to the appropriate

fund while the earnings and expenses on the commingled assets are allocated to each program's trust

funds on the basis of each trust fund's value, relative to the total value of the commingled fund.
                                                                                                            20


        Cash and Cash Eauivalents: Cash includes cash on hand and demand deposits. Cash

equivalents are securities with a maturity of one business day.

        Investment Valuation and Income: PBGC bases market values on the last sale of a listed

security, on the mean of the "bid-and-asked" for nonlisted securities or on a valuation model in the case

of fixed-income securities that are not actively traded. These valuations are determined as of the end of

each fiscal year. Purchases and sales of securities are recorded on the trade date. In addition, PBGC

invests in and discloses its derivative investments in accordance with the guidance contained in FAS No.

133 ("Accounting for Derivative Instruments and Hedging Activities"), as amended. Investment

income is accrued as earned. Dividend income is recorded on the ex-dividend date. Realized gains and

losses on sales of investments are calculated using first in first out for the revolving fund and average

cost for the trust fund. PBGC marks the plan's assets to market and any increase or decrease in the

market value of a plan's assets occurring after the date on which the plan is terminated must, by law, be

credited to or suffered by PBGC.

        Sponsors of Terminated Plans, Receivables: The amounts due from sponsors of terminated

plans or members of their controlled group represent the settled, but uncollected, claims for employer

liability (underfunding as of date of plan termination) and for contributions due their plan less an

allowance for estimated uncollectible amounts. PBGC discounts any amounts expected to be received

beyond one year for time and risk factors. Some agreements between PBGC and plan sponsors provide

for contingent payments based on future profits of the sponsors. The Corporation will report any such

future amounts in' the period they are realizable. Income and expenses related to amounts due from

sponsors are reported in the underwriting section of the Statements of Operations and Changes in Net

Position. Interest earned on settled claims for employer liability and due and unpaid employer

contributions (DUEC) is reported as "Income: Other." The change in the allowances for uncollcctible

employer liability and DUEC is reported as "Expenses: Other."

       Premiums: Premiums receivable represent the estimated earned but unpaid portion of the

premiums for plans that have a plan year commencing before the end of PBGC's fiscal year and past

due premiums deemed collectible, including collectible penalties and interest. The liability for unearned

premiums represents an estimate of payments received during the fiscal year that cover the portion of a

plan's year after PBGC's fiscal year-end. Premium income represents actual and estimated revenue
                                                                                                             2I

generated from self-assessments from defined benefit pension plans as required by Title N of ERISA

(see Note 9).

        Capitalized Assets: Capitalized assets include furniture and fixtures, EDP equipment and

internal-use software. Beginning in Fiscal Year 2004, PBGC, in compliance with AICPA Statement O f

Position 98-1 and FASB EITF 97-13 began to account for the cost of computer software developed for

internal use. This includes costs for internally developed software incurred during the application

development stage (system design including software configuration and software interface, coding,

testing including parallel processing phase). These costs are shown net of depreciation and

amortization.

        Present Value of Future Benefits (PVFB): The PVFB is the estimated liability for future

pension benefits that PBGC is or will be obligated to pay the participants of trusteed plans and

terminated plans pending trusteeship. This liability is stated as the actuarial present value of estimated

future benefits less the present value of estimated recoveries from sponsors and members of their

controlled group and the assets of terminated plans pending trusteeship as of the date of the financial

statements. PBGC also includes the estimated liabilities attributable to probable future plan

terminations as a separate line item in the PVFB (net of estimated recoveries and assets). PBGC uses

assumptions to adjust the value of those future payments to reflect the time value of money (by

discounting) and the probability of payment (by means of decrements, such as for death or retirement).

PBGC also includes anticipated expenses to scttle the benefit obligation in the determination of the

PVFB. PBGC's benefit payments to participants represent a reduction to the PVFB liability.

        The values of the PVFB are particularly sensitive to changes in underlying estimates and

assumptions. These estimates and assumptions could change and the impact of these changes may be

material to PBGC's financial statements (see Note 4).

        (1)     Trusteed Plans -- represents the present value of future benefit payments less the present

                value of expected recoveries (for which a settlement agreement has not been reached with

                sponsors and members of their controlled group) for plans that have terminated and been

                trusteed by PBGC prior to fiscal year-end.

        (2) Terminated Plans Pending Trusteeship -- represents the present value of future benefit
                payments less the plans' net assets (at fair value) anticipated to be received and the present

                value of expected recoveries (for which a settlement agreement has not been reached with
                                                                                                     22

      sponsors and members of their controlled group) for plans that have terminated but have

      not been trusteed by PBGC prior to fiscal year-end.

(3)   Settlements and Judgments -- represents estimated liabilities related to settled litigation.

(4)   Net Claims for Probable Terminations - I n accordance with Statement of Financial

      Accounting Standards No. 5 (Accounting for Contingencies) PBGC recognizes net claims

      for probable terminations which represent PBGC's best: estimate of the losses, net of plan

      assets and the present value of expected recoveries (from sponsors and members of their

      controlled group) for plans that are likely to terminate in a future year. These estimated

      losses are based on conditions that existed as of PBGC's fiscal year-end. Management

      believes it is likely that one or more events subsequent to PBGC's fiscal year-end will

      occur, confirming the loss. Criteria used for classifying a specific plan as a probable

      termination include, but are not limited to, one or more of the following condtions: the

      plan sponsor is in liquidation or comparable state insolvency proceeding with no known

      solvent controlled group member; sponsor filed or intends to file for distress plan

      termination; or PBGC seeks involuntary plan termination. In addition, Management takes

      into account other economic events and factors in making judgements regarding the

      classification of a plan as a probable termination. These events and factors may include,

      but arc not limited to: the plan sponsor is in bankruptcy or has indicated that a bankruptcy

      filing is imminent; the plan sponsor has stated that plan termination is likely; the plan

      sponsor has received a going concern opinion from its independent auditors; or the plan

      sponsor is in default under existing credit agreement(s).

      In addition, a reserve for large unidentified probable losses is recorded based on actual

      PBGC experience, as well as the historical industry bond default rates. This reserve has

      been developed by segregating plan sponsors with aggregate underfunding equal to or

      greater than $5 million into risk bands which reflect their level of credit risk. A reserve for

      small unidentified probable losses and incurred but not reported claims is also recorded

      based on an actuarial loss development methodology (triangulation) (see Note 4).

(5)   PBGC identifies certain plans as high risk if the plan sponsor meets one or more criteria

      that include, but are not limited to, the following conditions: sponsor is in Chapter 11

      proceedings; sponsor received a minimum funding waiver within the past five years;
                                                                                                              23

              sponsor granted security to an unsecured creditor as part of a renegotiation of debt within

              the past two years; sponsor is known to have been in default on existing debt within the

              past two years (regardless of whether it received a waiver of default); or sponsor's

              unsecured debt is rated CCC+/Caal or lower by S&P or Moody's respectively. PBGC

              specifically reviews each plan identified as high risk and classifies those plans as probable

              if, based on available evidence, PBGC concludes that plan termination is likely. Otherwise,

              high risk plans are classified as reasonably possible.

        (6) In accordance with Statement of Financial Accounting Standards No. 5 (Accounting for
              Contingencies), PBGC's exposure to losses from plans of companies that are classified as

              reasonably possible is disclosed in footnotes. Criteria used for classifying a company as a

              reasonably possible include, but are not limited to, one or more of the following

              conditions: the plan sponsor is in Chapter 11 reorganization; funding waiver pending or

             outstanding with the Internal Revenue Service (IRS); sponsor missed minimum funding

              contribution; sponsor's bond rating is below-investment-grade for Standard & Poor's

              (BB+) or Moody's's (Bal); sponsor has no bond rating but unsecured debt is below
             investment grade; or sponsor has no bond rating but the ratio of long-term debt plus

             unfunded benefit liability to market value of shares is 1.5 or greater (see Note 7).

        Present Value of Nonrecoverable Future Financial Assistance: In accordance with Title IV

of ERISA, PBGC provides financial assistance to multiemployer plans, in the form of loans, to enable

the plans t o pay guaranteed benefits to participants and reasonable administrative expenses. These

loans, issued in exchange for interest-bearing promissory notes, constitute an obligation of each plan.

       The present value of nonrecoverable future financial assistance represents the estimated

nonrecoverable payments to be provided by PBGC in the future to multiemployer plans that will not be

able to meet their benefit obligations. The present value of nonrecoverable hture financial assistance is

based on the difference between the present value of future guaranteed benefits and expenses and the

market value of plan assets, including the present value of future amounts expected to be paid by

employers, for those plans that are expected to require future assistance. The amount reflects the rates

at which, in the opinion of management, these liabilities (net of expenses) could be sertled in the market

for single-premium nonparticipating group annuities issued by private insurers (see Note 5).
                                                                                                             24

        A liability for a particular plan is included in the Present Value of Nonrecoverable Future
Financial Assistance when it is determined that the plan is currently, or will likely become in the future,

insolvent and will require assistance to pay the participants their guaranteed benefit. Determining

insolvency requires considering several complex factors, such as an estimate of future cash flows, future

mortality rates, and age of participants not in pay status.

        Other Expenses: These expenses represent an estimate of the net amount of receivables

deemed to be uncollectible during the period. The estimate is based on the most recent status of the

debtor (e.g., sponsor), the age of the receivables and other factors that indcate the element of

uncollectibility in the receivables outstanding.

        Losses from Completed and Probable Terminations: Amounts reported as losses from

completed and probable terminations represent the difference as of the actual or expected date of plan

termination between the present value of future benefits (including amounts owed under Section

4022(c) of ERISA) assumed, or expected to be assumed, by PBGC, less related plan assets and the

present value of expected recoveries from sponsors and members of their controlled group (see Note

10). In addition, the plan's net income from date of plan termination to the beginning of PBGC's fiscal
year is included as a component of losses from completed and probable terminations for plans with

termination dates prior to the year in which they were added to PBGC's inventory of terminated plans.

        Actuarial Adjustments and Char~es(Credits): PBGC classifies actuarial adjustments related

to changes in method and the effect of experience as underwriting activity; actuarial adjustments are the

result of the movement of plans from one valuation methodology to another (e.g., nonseriatim to

seriatim) and of new data (e.g., deaths, revised participant data). Actuarial charges (credits) related to

changes in interest rates and passage of time are classified as financial activity. These adjustments and

charges (credits) represent the change in the PVFB that results from applying actuarial assumptions in

the calculation of future benefit liabilities (see Note 4).

        De~reciationand Amortization: PBGC calculates depreciadon on the straight-line basis over

estimated useful lives of 5 years for equipment and 10 years for furniture and fixtures. PBGC calculates

amortization for capitalized software, which includes certain costs incurred for purchasing and

developing software for internal use, on the straight-line basis over estimated useful lives not to exceed 5

years, commencing on the date that the Corporation determines that the internal-use software is

implemented. Routine maintenance and leasehold improvements (the amounts of which are not

material) are charged to operations as incurred.
                                                                                                                                                      25


                          Reclassification: Certain amounts in the 2003 financial statements have been reclassified

              to be consistent with the 2004 presentation.



              Note 3 -- Investments

                          Premium receipts are invested in securities issued by the U.S. Government.

                          The trust funds include assets PBGC acquires or expects to acquire with respect to terminated

              plans (e.g., recoveries from sponsors) and investment income thereon. These assets generally are held

              by custodian banks. The basis and market value of the investments by type are detailed below as well as

              related investment profile data. The basis indicated is cost of the asset if acquired after the date of plan

              termination or the market value at date of plan termination if the asset was acquired as a result of a

              plan's termination. PBGC marks the plan's assets to market and any increase or decrease in the market

             value of a plan's assets occurring after the date on which the plan is terminated must, by law, be credited

              to or suffered by PBGC. Note 11 provides the components of investment income.




                                                                                       September 30,                             September 30,
                                                                                             2004                                    20113
                                                                                                    Market                                 Market
      s n/i//ionsj
~ollnrm                                                                            Basis             Value                    Basis         Value
Fixcd maturiy securitia:
  U.S. Government securities                                                     515,095         $15,667                   $14,997        $1 5,450
  Cmnrnercial paper                                                                  188             188                        87              87
  Asset backed securities
  Corporate and other bonds
  Subtotal
tiquity securities
Real rstate and real rstate investmrnt trusts
Insurance contracts and other investments
Total *

* This includes securities on loan at September 30,2004, and September 30,2003, with a market valuc of $622 million and $213 million, respectively.


I N V E S T M E N T S O F M U L T I E M P L O Y E R R E V O L V I N G F U N D S A N D M U L T I E M P L O Y E R T R U S T E E D PLANS

                                                                                   S e ~ t e m b e 3r0.                          September 30.
                                                                                          2004        .                             2003
                                                                                                 Market                                    hlarket
(Do//or:i irr n/ifions)                                                         Basis               Value                     Basis         Value
Fixed maturity securities:
  U S . Government securit~es
liquity securities
Total
                       INVESTMENT PROFILE
                                                                        September 30,

                      Fixed-Income
                                -- Assets    -- --
                      Average Quality                            AAA             hAh
                      Average Maturity (years)                  15.2            17.2
                      Duration (years)                           9.1            10.1
                      Yield to Maturity ('l/o)                   4.4             4.6

                      Equity Assets
                      ~,&afi~-p~;;&&,~,,i~~   Ra;L----- -       20.4            24.2
                      Div~dendYield (%)                          1.7             1.7
                      Brta                                       0.98            0.96




Derivative Investments: Derivatives are accounted for at market value in accordance with

Statement of Financial Accounting Standards No. 133, as amended. Derivatives are marked to market

with changes in value reported within financial income. The standard requires disclosure of fair value of

these instruments. During fiscal years 2003 and 2004, PBGC invested in investment products, which

used various U.S. and non-U.S. derivative instruments including but not limited to: equity index futures

contracts, money market and government bond futures contracts, swap contracts, swaption contracts,

stock warrants and rights, debt option contracts and foreign currency forward and option contracts.

Some of these derivatives are traded on organized exchanges and thus bear minimal credit risk. The

counterparties to PBGC's non-exchange-traded derivative contracts are major financial institutions.

PBGC has never experienced non-performance by any of its counterparties.

        Futures are exchange-traded contracts specifying a future date of delivery or receipt of a certain

amount of a specific tangible or intangible product. The futures exchange's clearinghouses clear, settle,

and guarantee transactions occurring through its facilities. Institutional investors hold these future

contracts on behalf of PBGC as efficient and liquid substitutes for purchases and sales of financial

market indices and securities. Open futures positions are marked to market daily. An initial margin of

generally 1 to 6 percent is maintained with the broker in Treasury bills or similar instruments. In

addition, futures contracts require daily settlement of variation margin resulting from the marks to

market. In periods of extreme volatility, margin calls may create a high liquidity demand on the

underlying portfolio. T o mitigate this, PBGC maintains adequate liquidity in its portfolio to meet these

margin calls.
                                                                                                            27

        The table below summarizes the Corporation's financial futures positions at September 30,2004

and 2003. The table includes the notional and fair value of the instrument. The notional is the

theoretical cost of a futures contract defined as the number of contracts held times trade price times a

multiplier. The fair value is the market value (amount needed to settle) of a financial instrument

contract.


                FAIR VALUE O F FINANCIAL FUTURES
                                                         N~~tir~nal         Fair Value
                                                     at September 30,   at September 30,
                (Dollnrs in n~ilfians)                  2004    2003      2004      2003

                Financial futures contracts          $2,025   $1,023      $16      f(4)




        Foreign currency forward and option contracts are used to hedge currency exposure (i.e.,

minimize currency risk) of certain assets and to adjust overall currency exposure to reflect the

investment views of the portfolio managers regarding relationships between currencies. Other

investments held by the Corporation include swap contracts and swaption (i.e., option on swap)

contracts. A swap is an agreement between two parties to exchange different financial returns on a

notional investment amount. For example, an interest rate swap involves exchanges of fixed rate and

floating rate interest. There is no exchange of the underlying principal. PBGC uses swap and swaption

contracts to adjust exposure to interest rates, fixed income securities exposure, and to generate income

based on the investment views of the portfolio managers regarding interest rates, indices and debt issues.

Stock warrants and rights allow PBGC to purchase securities at a stipulated price within a specified time

limit. For the fiscal years ended September 30,2004 and September 30,2003 gains and losses from

settled margin calls are reported in Investment income on the Statement of Operations and Changes in

Net Position.

        Security Lendinp.: PBGC participates in a security lending program administered by its

custodian bank. The custodian bank requires collateral that equals 102 percent to 105 percent of the

securities lent. The collateral is held by the custodian bank. In addition to the lending program

managed by the custodian bank, some of PBGC's investment managers are authorized to invest in

repurchase agreements and reverse repurchase agreements. The manager either receives cash as

collateral or pays cash out to be used as collateral. Any cash collateral received is invested. The total
                                                                                                          2J7



value of securities on loan at September 30,2004, and September 30,2003, was $622 million and

$213 million, respectively.



N o t e 4 -- Present Value of Future Benefits

        The following table summarizes the actuarial adjustments, charges and credits that explain how

the Corporation's single-employer program liability for the present value of future benefits changed for

the years ended September 30,2004 and 2003.

        For FY 2004, PBGC used a 25-year select interest factor of 4.8% followed by an ultimate factor

of 5.0% for the remaining years and for fi' 2003, a 20-year select interest factor of 4.4% followed by an

ultimate factor of 4.5% for the remaining years. These factors were determined to be those needed,
given the mortality assumptions, to continue to match the survey of annuity prices provided by the

American Council of Life Insurers (ACLI). PBGC's regulations state that both the interest factor and the

length of the select period may vary to produce the best fit with these prices. The prices reflect rates at

which, in the opinion of management, the liabilities (net of administrative expenses) could be settled in

the market at September 30, for the respective year, for single-premium nonparticipating group annuities

issued by private insurers. Many factors, including Federal Reserve policy, may impact these rates.

       For September 30,2004, PBGC used the 1994 Group Annuity Mortality (GAM) Static Table

(with margins), set forward 1 year and projected 20 years to 2014 using Scale AA. For September 30,

2003, PBGC used the same table, set forward two years but projected 18 years to 2012 using Scale AA.
The number of years that PBGC projects the mortality table reflects the number of years from the 1994

base year of the table to the end of the fiscal year (10 years in 2004 versus 9 years in 2003) plus PBGC's

calculated duration ofits liabilities (10 years in 2004 versus 9 years in 2003). PBGC's procehre is based

on the procedures recommended by the Society of Actuaries UP-94 Task Force (which developed the

GAM94 table) for taking into account future mortality improvements.

       During FY 2004, PBGC conducted a mortality study. The study showed that the mortality
assumptions used in FY 2003 reflected higher mortality than was realized in PBGC's seriatim

population. Therefore, PBGC adopted a base mortality table (i.e., GAM94 set forward one year instead

of GAM94 set forward two years) that better reflects past mortality experience. The ACLI survey of
annuity prices, when combined with the mortality table, provides the basis for determining the interest
factors used in calculating the PVFB. The insurance annuity prices, when combined with the stronger
                                                                                                              27


mortality table, result in a higher interest factor. The increase in the liability due to the change in the

mortality table is included in the actuarial adjustments. There is a compensating decrease in the actuarial

charge due to the change in interest rates.

        The reserve for administrative expenses in the 2004 and 2003 valuations was.assumed to be 1.18

percent o f benefit liabilities plus additional reserves for cases whose plan asset determinations,

participant database audits and actuarial valuations were not yet complete. The expense assumption was

based on a study performed for PBGC in 2000 by a major accounting firm. The factors to determine

the additional reserves were based on case size, number of participants and time since trusteeship.

        The present values of future benefits for trusteed multiemployer plans for 2004 and 2003 reflect

the payment of assistance and the changes in interest and mortality assumptions, passage of time and the

effect of experience.

        The resulting liability represents PBGC's best estimate of the measure of anticipated experience

under these programs.
RECONCILIATION OF T H E PRESENT VALUE OF FUTURE BENEFITS FOR T H E YEARS E N D E D SEPTEMBER 30,2004 AND 2003
                                                                                S e p t e m b e r 30,

~ o N illm ~ i i i N i u ~ ~ s )                                                                                       2004
Present value o f future benefits, at beginning
        o f pear -- Single-Employer, net                                                                                  $44,641
  Estimated recoveries, prior pear                                                                                             68
  .4ssets of terminated plans p e n d i n g trusteeship, net, prior year                                                      172
  Present value o f future benefits a t begjnning o f year,gross                                                           44,881
  Settlements and judgments, prior year
  N e t claims for.probable terminations, prior year
                               --
  Actuarial adjustments underwriting:
       C h a n g e s i n m e t h o d a n d assumptions
       Effect o f experience
       Total actuarial adjustments -- underwriting
     Actuarial charges -- financial:
      Passage o f time
      Change in interest rates
      T o t a l actuarial charges -- fmancial
   Total actuarial charges, current year
   Terminadmu:
       Current ycar
       Changes in prior year
       T o t d terminations
   Benefit payments, current
    listimated recoveries, current year
   Assets o f terminated plans p e n d i n g trusteeship, net, current year
   Settlements and iudgmcnts, current year
   N e t claims for probable terminations:
       Future benefits"
       I k t i m a t c d plan assets a n d recoveries from sponsors
       Total net claims, current year
P r e s e n t value o f future benefits,
   a t e n d o f year -- Single-Empluyer. n e t
Presrn t value o f future benefits,
   at e n d o f ycar -- Multiemployer
T o t a l present value o f future benefits, at e n d o f year, net

+             'I'hc benefit payments o f 93,006 million and 12,488million indudr $119 million in 2004 and $334 million in 2003 for benefits paid from plan assets by plans prior
              to trusteeship.
L*
              The futur? benefits for probable terminations of 930,953 million and $9,735 million for fiscal years 2004 and 2003, respectively, include 9431 million and
              $214 ~ i i i l l i ~respectively,
                                  ~n,           in net claims (future benefits kss estimated plan assets and recoveries) fur probable terninatkms not specifically identified and $30,522
              million and 59.521 million, respectively, in net claims for specifically identified probables.


                       The following table details the assets that make up single-employer terminated plans pending
               trusteeship:
ASSETS OF SINGLE-EMPLOYER TERMINATED PLANS PENDING TRUSTEESHIP. N E T
                                                                                                - -                                  - -
                                                                                                                                       -



                                                                                                 September 30,                                   S e p t e m b e r 30,
                                                                                                     2004                                              2003
                                                                                                          Market                                                 Market
                                                                                              Basis        Value                             Bass                 Value


U S . G o v e r n m e n t securities
Corporate and other bonds
liquity securities
Insurance contracts
Other
Total, net



                            Net Claims for Probable Terminations: Factors that are presently not fully determinable may

               be responsible for these claim estimates differing from actual experience. Included in net claims for

               probable terminations is a provision for future benefit liabilities for plans not specifically identified.

                            The values recorded in the following reconciliation table have been adjusted to the expected dates

               of termination.
RECONCILIATION OF NET CLAIMS FOR PROBABLE TERMINATIONS

                                                                                                 September 30,
(Dolors ill ~~i//iorrs)                                                           2004                                2003
Net claims for probable terminations, at beginning of year                               $ 5,207                             $ 6,322
Chnngr in IBNR                                                                                 (41)                               0
New claims                                                             $14,407                                   54,211
Actual tcrniinadons                                                     (3,258)                                  (5,448)
Deleted probables                                                         (243)                                    (228)
Change in benefit liabilities                                              929                                      270
Change ~n plan assets                                                      (75)                                      80
Loss (credit) on probablcs                                                                   11,760                          j1,115)
Net claims for probable terminations, at m d of !car                                     $16.926                             5 5.2n7




             The following table itemizes the probable exposure by industry:
PROBABLES EXPOSURE BY INDUSTRY (PRINCIPAL CATEGORIES)

(Do/I~tr.sB /~~illiutts)                                        FY 2004           FY 2003
Transportation, Comn~unicationand Utilities                      $15,057           51,290
Manufacturing                                                        630            2,725
Finance, Insurance, and Real Estate                                  569               31
Wholesale and Retail Trade                                           219              57 3
Agriculture, Mining, and Construction                                  0              237
Serviccs/Othrr                                                       451              351
Total                                                            $16.926           $5.207


             For further detail, see Note 2 subpoint (4).



                           The following table shows what has happened to plans classified as probables. This table does

             not capture or include those plans that were not initially classified as probable.


PROBABLES EXPERIENCE
As Initially Recorded Beginning i n 1987
/Dullotr in /d~'iortsj                                                         Status of Probables from 1987-2003 at September 30. 2f104
Beginning in 1987, number of plans reported as Probable:                      Number of          Percent of        Net       Percent o f
                                                                                    Plnns             Plans      Claim       Net Claim
   Probables terminated
   Probables not yet terminated or deleted
   Pr(~bablesdeleted
   Total
                                                                                                         PZ 

Note 5   -- Multiemployer Financial Assistance
         PBGC provides financial assistance to multiemployer defined benefit pension plans in the form

of loans. An allowance is set up to the extent that repayment of these loans is not expected.

              NOTES RECEIVABLE
              MULTIEMPLOYER FINANCIAL ASSISTANCE
                                                                         September 30,
              ~ o l l ~i,r n~illionr)
                           s                                    2004                   2003
              Gross balance at beginning of year               $61                     S 56
              Financial assistance payments--current year       10                            5
              Subtotal                                          71                           61
              Allowanct: for uncollectible amounts           (71)                 (61)
              Net balance at end of year                       $ 0                     $      n



         The losses from financial assistance reflected in the Statements of Operations and Change

Net Position include period changes in the estimated present value of nonrecoverable future financial

assistance.


                PRESENT VALUE OF NONRECOVERABLE F U T U R E FINANCIAL
               ASSISTANCE AND LOSSES FROM FINANCIAL ASSISTANCE



                                                                       September 30,
               (l3ollnrs in n~illions)                          2004                  2003
               Balance at beginning of year                   $1,250              $    775
               Changes in allowance:
                Iaosses from financial assistance                55                    480
                 Financial assistance granted
                   (previ(~uslyaccrued)
               Balance at end of year




Note G   -- Accounts Payable and Accrued Expenses
         The following table itemizes accounts payable and accrued expenses reported in the Statements

of Financial Condition:

               ACCOUNTS PAYABLE AND A C C R U E D EXPENSES
                                                                         September 30,
                Pollfl,?it) n/i/liotrs)                              2004                2003
                Annual l a v e                                         $ 5               F        5
                Collateral held for loaned securities                  637                   220
                0 t h payable and accrued expenses
                Accounts payable and accrued expenses
Note 7 -- Contingencies

        There are a number of single-employer plans that are sponsored by companies whose credit

qualiq is below investment grade which poses a greater risk of being terminated. In addition, there are

some multiemployer plans that may require future financial assistance. The amounts disclosed below

represent the Corporation's best estimates of the possible losses in these plans given the inherent

uncertainties about these plans.

        In accordance with Statement of Financial Accounting Standards No. 5, PBGC classified a

number of these companies as reasonably possible terminations as the sponsors' financial condition and

other factors did not indicate that termination of their plans was likely as of year-end. The best estimate

of aggregate unfunded vested benefits exposure to PBGC for the companies' single-employer plans

classified as reasonably possible with an underfunding of $5 million or greater as of September 30, 2004,

was $96 billion.

       The estimated unfunded vested benefits exposure has been calculated as of December 31,2003.

PBGC calculated this estimate as in previous years by using data obtained from filings and submissions

with the government and from corporate annual reports for fiscal years ending in calendar 2003. The

Corporation adjusted the value reported for liabilities to the December 31, 2003, PBGC select interest

rate of 4.0% (the liabilities are not valued at September 30 as the information is not available). When

available, data were adjusted to a consistent set of mortality assumptions. The underfunding associated

with these sponsors' plans would generally tend to be greater at September 30, 2004, because of the

economic conditions (e.g., lower interest rate factors andlor low investment returns on plan assets) that

existed between December 31,2003, and September 30,2004. The Corporation &d not adjust the

estimate for events that occkrred between December 31,2003, and September 30,2004.
                     The following table itemizes the reasonably possible exposure by industry:
REASONABLE' POSSIBLE EXPOSURE BY INDUSTRY (PRINCIPAL CATEGORIES)
I D o l l m in niilliuns)                                    FY 2004        FE' 2003
Manufacturing                                                 $48,444        539,470
Transportation, Comn~unicationand Utilities                   30,480          32,937
Ser~ices/Other                                                 7,926           2,501
\Vholesalt. and Retail Trade                                   5,806           4,346
Agriculture, Alining and Construction                           1,866          1,762
Finance, Insurance, and Real Estate                             1,151          1,079
Total




                     PBGC included amounts in the liability for the present value of nonrecoverable future financial

          assistance (see Note 5) for multiemployer plans that PBGC estimated may require future financial

          assistance. In addition, PBGC currently estimates that it is reasonably possible that other multiemployer

          plans may require future financial assistance in the amount of $108 million.

                    The Corporation calculated the future financial assistance liability for each multiemployer plan

          identified as probable or reasonably possible as the present value of guaranteed future benefit and

          expense payments net of any future contributions or withdrawal liability payments as of the later of

          September 30,2004, or the projected (or actual, if known) date of plan insolvency, discounted back to

          September 30,2004. The Corporation's identification of plans that are likely to require such assistance

          and estimation of related amounts required consideration of many complex factors, such as an estimate

          of future cash flows, future mortality rates, and age of participants not in pay status. These factors are

          affected by future events, including actions by plans and their sponsors, most of which are beyond the

          Corporation's control.

                    PBGC used select-and      ultimate interest rate assumptions of 4.8% for the first 25 years after the

          valuation date and 5.0% thereafter. The Corporation also used the 1994 Group Annuity Mortality Static

          Table (with margins), set forward 1 year, projected 20 years to 2014 using Scale AA.

          Note 8 -- Commitments
                    PBGC leases its office facility under a commitment that began on December 11,1993, and

          expires December 10,2008. However, a new lease will take effect on January 1,2005. The new lease

          agreement was entered into because of the need for additional office space. The lease provides for

          periodlc rate increases based on increases in operating costs and real estate taxes over a base amount. In

          addition, PBGC is leasing space for field benefit administrators. These leases began in 1996 and expire
in 2013. The minimum future lease payments for office facilities having noncancellable terms in excess

of one year as of September 30,2004, are as follows:


COMMITMENTS: F U T U R E LEASE PAYMENTS
( D o / / m Lr n/il/ionsl
Scars Ending                                                                Operating
September 30,                                                                 Ixascs




Thereafter
Minimum lease payments



               Lease expenses were $15.6 million in 2004 and $14.6 million in 2003.


N o t e 9 -- Premiums
               For both the single-employer and multiemployer programs, ERISA provides that PBGC shall

continue to guarantee basic benefits despite the failure of a plan administrator to pay premiums when

due. PBGC assesses interest and penalties on the unpaid portion of or underpayment of premiums.

Interest continues to accrue until the premium and the interest due are paid. The amount of penalty that

can be levied is capped at 100 percent of the premium late payment or underpayment. Annual flat- rate

premiums for the single-employer program are $19 per participant. Underfunded single-employer plans

also pay variable-rate premiums of $9 per $1,000 of underfunding if not exempt from the variable-rate

premiums. Annual flat-rate premiums for the multiemployer program are $2.60 per participant and there

are no variable-rate premiums. PBGC recorded premium income, excluding interest and penalty, of

approximately $677 million in flat-rate premiums and $804 million in variable-rate premiums for fiscal

pear 2004, and approximately $676 million in flat-rate premiums and $301 million in variable-rate

premiums for fiscal year 2003.



N o t e 10 -- Losses from Completed a n d Probable Terminations
                Amounts reported as losses are the present value of future benefits less related plan assets and

the present value of expected recoveries from sponsors. The following table details the components

that make up the losses:
LOSSES FROM COMPLETED AND PROBABLE TERMINATIONS                                      -- SINGLE-EMPLOYER PROGRAM
                                                                              For the Years Ended Septcm ber 30,
                                                                             2004                                                2003
                                                                         Changes i n                                              Changes in
                                                                 New      Prior Year                                   New         Prior Year
I l ) u / / m ~in t~/i//iuns)                             Terminations Terminations                  Total      Terminations    Terminations    Total
Present valuc o f future benefits                                   $6,926          $(427)       $    6,499
Less plan assets                                                     3,137            125            3,262
Plan asset insufficiency                                             3,789           (552)           3,237
Less estimated recoveries                                              280             11               291
Subtotal                                                            $3.509          $(563\           2,946
Settlements and judgments                                                                                   1
l a s s (credit) on probables                                                                        11,760*
Total                                                                                            $14.707
* Sec Note 4

                Note 11 -- Financial Income
                      The following table details the combined financial income by type of investment for both the single-

                employer and multiemployer programs:

                                            FINANCIAL I N C O M E
                                                                                       For the Years Ended September 30,
                                            (noNan i s n~i//iunr)                                 2004                 2003
                                            Fixed-income securities:
                                             Interest earned                                 $       908         $      941
                                             Realized gain (loss)                                    (20)             1,599
                                             Unrealized gain (loss)                                  149             (I ,227)
                                             Total fixed-income securities                       1,037                1,313
                                            liquity securities:
                                              Dividends earned                                       104                 75
                                             Realized gain (loss)                                1,044                 (1 34)
                                             Unrealized gain                                     1.048               2.1 18
                                             Total equity secudties                              2,196               2,059
                                            Other income                                              18                 14
                                            Total financial income                           53.251                S 3.386


               Note 12 -- Employee Benefit Plans




                                                                                                                                                        -
                                All permanent full-time and part-time PBGC employees are covered by the Civil Service

                Retirement System (CSRS) or the Federal Employees Retirement System FERS). Full-time and part-

                time employees with less than five years service under CSRS and hired after December 31,1983, are

                automatically covered by both Social Security and FERS. Employees hired before January 1, 1984,

                participate in CSRS unless they elected and qualified to transfer to FERS.

                                The Corporation's contribution to the CSRS plan for 2004 was 7.0 percent of base pay for those

                employees covered by that system. For FY 2003, the rate for the first three months was 7.5 percent and

                7.0 percent for the remainder of that year. For those employees covered by FERS, the Corporation's

                contribution was 10.7 percent of base pay for both 2004 and 2003. In addition, for FERS-covered

                employees, PBGC automatically contributes 1 percent of base pay to the employee's Thrift Savings
                                                                                                                            37

                account, matches the first 3 percent contributed by the employee and matches one-half of the next 2

                percent contributed by the employee. Total retirement plan expenses amounted to $10 million in both

                2004 and 2003.

                             These'financial statements do not reflect CSRS or FERS assets or accumulated plan benefits

                applicable to PBGC employees. These amounts are reported by the U S . Office of Personnel

                Management (OPhl) and are not allocated to the individual employers. OPM accounts for federal

                health and life insurance programs for those eligible retired PBGC employees who had selected federal

               government-sponsored plans. PBGC does not offer other supplemental health and life insurance

               benefits to its employees.



               Note 13 -- Cash Flows

                             The following is a reconciliation between the net income as reported in the Statements of

               Operations and Changes in Net Position and net cash provided by operating activities as reported in the

               Statements of Cash Flows.


RECONCILIATION O F N E T I N C O M E T O N E T CASH PROVIDED BY OPERATING A C T N I T I E S
                                                                       Single-Employer         Multiemployer        Memorandum
                                                                           Program               Program               Total
                                                                        September 30,          September 30,         September 30,
f l u / l m i n n~i//iuns)                                            2004        2003       2004        2003       2004      2003
Net income (loss)
Adjustmene t o reconcile net income to net cash
 provided by operating activities:
     Net (appreciation) decline in fair value   I J investments
                                                     ~

     Net gain of terminated plans pending trusteeship
     I.osses o n completed and probable terminations
     Actuarial charges
     Benefit payments - trusteed plans
     Settlements and judgments
     Cash received from plans upon trusteeship
     Receipts from sponsors/non-sponsc~rs
     Anic~rtizauc~n
                 o f discounts/premiums
     Changes in assets and liabilities, net o f effects
      o f trusteed and pending plans:
            (Increase) decrease in receiwbles
            Increase in present value of nonrecoverable
              future fnancial assistance
            I n c r e s e tn unmrned prenuums
            Increase in accounts payable
Net cash provided (used) by operating acuvities
   Section V 


Agency Comments
                    Pension Benefit Guaranty Corporation
FgHC 1200 K Street, N.W., Washington, D.C. 20005-4026
U S GWERNU,EIJT~GE~C,
                                                                      Office of the Executive Direct01




        TO:             Robert L. Emmons
                        Inspector General

        FROM:

        SUBJECT: PBGC's Response to the FY 2004 and FY 2003 Financial Statements
                 Audit Reports

        PBGC management welcomes the opportunity to respond to the fiscal year 2004
        financial statements audit reports. We also appreciate the work of the Office of
        Inspector General (OIG) and PricewaterhouseCoopersto complete a complex
        audit within the 45-day period specified in the President's Management Agenda.

        The fiscal year 2004 report marks the 12th consecutive year we have received an
        unqualified audit opinion. Working together, we intend to continue this record
        of achievement.

       The Report of the Independent Auditors calls attention to the growing financial
       challenges facing PBGC, and the statutory requirement that PBGC's insurance
       programs be self-sustaining. The Report's recognition of the threats to the long-
       term viability of the pension insurance program helps to underscore the need for
       comprehensive pension reforms to strengthen the retirement security of the 44
       million Americans protected by PBGC.

       PBGC management is in agreement with all of the reported findings and
       recommendations.

       The Report on InternaI Control acknowledges that corrective actions have been
       completed on the material weakness and one reportable condition from FY 2003,
       and that the recommendations associated with these issues have been closed. In
       addition, the report highlights progress on the remaining five reportable
       conditions. As you will note in the specific responses below, we are actively
       pursuing corrective actions on these issues.
Reportable Conditions:

1. Regarding the need to integrate financial management systems, PBGC has
established an interdepartmental working group that includes audit
representatives from the OIG to implant appropriate corrective actions.
Management has obtained contractor assistance to conduct a review of the
financial systems to identify the areas that do not meet integration requirements.
PBGC's implementation efforts include the formal adoption of the updated Joint
Financial Management Improvement Program's (JFMIP)Framework for Federal
Management Systems (JFMIP-SR-01-04),to be applied to all PBGC financial
systems development initiatives.

2. On information systems security and enforcement, PBGC completed work to
finalize accreditation and certification of its business critical systems and
implemented established procedures for conducting risk assessments. A11
financial and mixed systems will undergo annual risk assessments. Also, PBGC
implemented a security plan for key production environments, as prescribed by
the National Institute of Standards and Technology (NIST) standards and OMB.
Work continues to fully address two remaining recommendations associated
with this reportable condition.

3. To improve controls related to single-employer premiums, PBGC
implemented My Plan Administration Account, enabling plan sponsors or plan
administrators to electronically complete and submit its premium filing and
payment. PBGC is working on a full-scale business re-engineering initiative for
premium operations, including an evaluation of the related internal controls.
The Corporation is also working on implementation of a new premium
accounting system to further strengthen
                                   -
                                         controls, which will be operational with
implementation of the new system, and comprehensive procedures for
processing and estimating premiums. The new system is designed to improve
timeliness and accuracy in premium operations in order to strengthen financial
management and customer service.

4. PBGC continues to make progress in improving controls over the
identification and measurement of the Single-Employer Program Fund
Contingent Liabilities. The OIG recognized improvements already made for
plans considered probable of termination; new guidance developed to help
differentiate between plans classifiable as probable and reasonable possible for
termination; the development of a staff procedures manual; etc. Management
has completed work to implement controls as they relate to the compressed
financial reporting time frames for the FY 2004 audit, including new procedures
to cover all aspects of plan classification. Management has also implemented
independent review procedures of unfunded benefit liability calculations for
contingent liabilities.

5. PBGC continues to strengthen controls over the identification and
classification of multiemployer plans probable of receiving financial assistance.
The Corporation has initiated actions to address this issue, and we are working
with the OIG and independent auditors to ensure that the program has effective
controls in this area. Program procedures and controls have been strengthened
to require documentation and concurrence on additions and deletions to the
universe of plans probable of receiving financial assistance, including reasons for
plan additions and deletions. Management completed revisions to program
procedures to clarify documentation needed to support classification decisions,
and to require the multiemployer universe reconciliation be independently
reviewed, and that the review be documented.

The Corporation remains committed to achieving substantive progress in
following up on the OIG's open audit recommendations, and we anticipate
working cooperatively with your office to make further gains in the audit follow-
u p process.
